Assessment of Corporation
Finance’s Confidential Treatment
Processes and Procedures




                       September 28, 2010
                           Report No. 479
                                                      UNITED STATES
                                     SECURITIES AND EXCHANGE COMMISSION
                                                 WASHINGTON. D.C.       20!549


        O ..... CI[ 0 ..
'N ... ItCTOA GI[NI[IIlAL
                                             MEMORANDUM
                                                    September 28.2010

                To:               Meredith Cross, Director, Division of Corporation Finance (CF)

                From:             H. David Kotz. Inspector General, Office of Inspector Generaf#k

                Subject:          Assessment of Corporation Finance's Confidential Treatment
                                  Processes and Procedures, Report No. 479

                This memorandum transmits the U.S. Securities and Exchange Commission,
                Office of Inspector General's (OIG) final report detailing the results of our audit
                on the CF's confidential treatment processes and procedures. This audit was
                conducted as part of our continuous effort to assess the management of the
                Commission's programs and operations and as a part of our annual audit plan.

                The final report contains eight recommendations that were developed to
                strengthen the Commission's confidential treatment processes and procedures.
                CF fUlly concurred with four recommendations, partially concurred with three
                recommendations, and did not concur with one recommendation. CF's written
                response to the draft report is included in its entirety in Appendix V.

                Within the next 45 days, please provide the OIG with a written corrective action
                plan that is designed to address the agreed-upon recommendations. The
                corrective action plan should include information such as the responsible
                official/point of contact, time frames for completing the required actions,
                milestones identifying how you will address the recommendations cited in this
                report.

                Should you have any questions regarding this report, please do not hesitate to
                contact me. We appreciate the courtesy and cooperation that you and your staff
                extended to our staff during this audit.

                Attachment

                cc:         Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
                            Diego Ruiz, Executive Director. Office of the Executive Director
                            Shelly Parratt, Deputy Director, Division of Corporation Finance,
                            Disclosure Operations




           Assessment of CF’s Confidential Treatment Processes and Procedures         September 28, 2010
           Report No. 479
                                                            i
Assessment of Corporation Finance’s
Confidential Treatment Processes and
Procedures

                              Executive Summary
Background. The Division of Corporation Finance’s (CF) chief roles within the
agency are to ensure that investors are provided with material information, offer
interpretive assistance to companies on the Securities and Exchange
Commission’s (SEC or Commission) rules and forms, and make proposals to the
Commission for new disclosure rules or revisions to existing disclosure rules.
Material information is provided to investors to assist them in making an informed
decision. This is not only done when a company originally offers its stock to the
public. It is also provided on a consistent basis as the company discloses
information to the marketplace. Companies are required to comply with the
reporting requirements set forth by the Securities Act of 1933 (Securities Act) and
the Securities Exchange Act (Exchange Act) of 1934.

CF has a number of statutory requirements and review priorities that it must meet
in pursuing its core investor protection responsibilities. For example, in addition
to processing requests for confidential treatment, CF reviews registrants’
Exchange Act reports, including the review of the financial statements of every
registrant at least once every three years, as mandated by the Sarbanes-Oxley
Act of 2002. Consistent with its investor protection mandate and the spirit of the
Sarbanes-Oxley Act, CF further reviews a substantial number of registrant’s
Exchange Act reports. CF also:

        •   Reviews and declares effective Securities Act registration statements;
        •   Reviews the filings of all companies registering with the Commission
            for the first time, regardless whether they are filing under the Securities
            Act or the Exchange Act;
        •   Responds to requests for no action relief;
        •   Assists the Commission with rule writing;
        •   Reviews tender offers and other transactions; and
        •   Provides interpretive guidance to registrants and would-be registrants.

The Securities Act is commonly referred to as the “truth in securities” law. This
act has two main components: 1) the Act requires that investors receive financial
and other significant information concerning securities being offered for public
sale; and 2) the Act prohibits deceit, misrepresentations, and other fraud in the
sale of securities. The basic means of accomplishing these goals are the
disclosure of important financial information through the registration of securities.

Assessment of CF’s Confidential Treatment Processes and Procedures     September 28, 2010
Report No. 479
                                                 ii
With the Exchange Act, Congress created the Securities and Exchange
Commission. The Exchange Act empowers the Commission with extensive
authority over all aspects of the securities industry. This includes the power to
register, regulate, and oversee brokerage firms, transfer agents, and clearing
agencies, as well as the nation’s securities self regulatory organizations (SROs).

The federal securities laws generally require any company that is publicly held or
is registering its securities for public sale to disclose a broad range of financial
and non-financial information in registration statements, annual reports, and
other filings made with the Commission. The disclosure requirements for
financial and non-financial information primarily are found in Regulation S-K.
Regulation S-X sets forth the financial statement disclosure requirements.

Sometimes the public disclosure of information required by the disclosure rules
(e.g., Regulation S-K) can adversely affect a company’s business and financial
condition because of the competitive harm that could result from the disclosure. 1
This issue frequently arises in connection with the requirement that a registrant
file publicly all contracts material to its business other than those it enters into in
the ordinary course of business. 2 Typical examples of the information that raises
this concern include pricing terms, technical specifications and milestone
payments. 3 To address the potential disclosure hardship, the Commission has
adopted a system that allows companies to request confidential treatment of
information filed under the Securities Act and the Exchange Act. 4

Specifically, Commission Rules 406 and 24b-2 set forth the exclusive means for
obtaining confidential treatment of information contained in documents filed
under the Securities Act and the Exchange Act, respectively that would be
exempt from disclosure under the Freedom of Information Act (FOIA). FOIA
requires all federal agencies to make specified information available to the public,
including information required to be filed publicly by Commission rules. FOIA,
however, contains nine specific exemptions. Rules 406 and 24b-2 require that
confidential treatment requests contain an analysis of the applicable FOIA
exemptions. Most applicants rely on the exemption for “trade secrets and
commercial or financial information obtained from a person privileged or
confidential,” 5 which is commonly referred to as “the (b)(4) exemption.”

Congressional Report. On January 25, 2010, the U.S. House of
Representatives Committee on Oversight and Government Reform issued a
special report focused on the disclosure surrounding payments made to

1
  Division of Corporation Finance Staff Legal Bulletin No.1 (with Addendum), February 28, 1997 (Addendum
included: July 11, 2001), page 2. See http://www.sec.gov/interps/legal/slbcf1r.htm.
2
  Id. Regulation S-K, Item 601, 17 C.F.R. § 229.601, requires all material contracts not made in the ordinary
course of business to be filed with the SEC as an exhibit.
3
  Division of Corporation Finance Staff Legal Bulletin No.1 (with Addendum), February 28, 1997 (Addendum
included: July 11, 2001), page 2. See http://www.sec.gov/interps/legal/slbcf1r.htm.
4
  Id.
5
  5 U.S.C. § 552(b)(4).
Assessment of CF’s Confidential Treatment Processes and Procedures                       September 28, 2010
Report No. 479
                                                     iii
counterparties of American International Group (AIG), as a result of the Federal
Reserve Bank of New York (FRBNY) Maiden Lane III (ML 3) transaction. 6 The
report stated that, as a result of the ML 3 transaction between AIG and the
FRBNY, AIG was required to file an 8-K report with the SEC to disclose
information as required under the securities laws. 7 The report further described
AIG’s 8-K regulatory filing submission process for the ML 3 transaction, which
included a confidential treatment request to the SEC for information contained in
an attachment to the ML 3 contract agreement identified as “Schedule A.” The
report stated that the “Schedule A" attachment contained details of payments
certain companies received as a result of the ML 3 transaction that terminated
certain derivative agreements, to which AIG was a counterparty.

In a statement issued by the FRBNY regarding public disclosure of the ML 3
transaction with AIG, the FRBNY stated that AIG’s decision to initiate a
confidential treatment request with the SEC for its 8-K filing associated with the
ML 3 transaction was not an uncommon practice and within the confines of the
SEC rules, as the SEC typically receives 1,500 confidential treatment requests
each year and grants confidential treatment requests 95 percent of the time. 8

Considering the Congressional efforts to provide the public with greater
transparency surrounding the Federal assistance to AIG, along with the
statements rendered by the FRBNY pertaining to the SEC’s confidential
treatment request process, the OIG decided to conduct an audit of CF’s
confidential treatment request processes and procedures. This audit aligns with
our overall objective and audit plan to continuously assess management of the
Commission’s programs and operations.

The OIG did not assess the confidential treatment request submitted by
American International Group (AIG) during its audit. Our audit objective was to
evaluate the CF confidential treatment request process in its entirety and
included testing a sample of confidential treatment requests, which did not
include the AIG request. Moreover, the findings do not specifically relate to any
single confidential treatment request including the AIG confidential treatment
request, but rather reflect observations that pertained to the overall confidential
treatment request processes and procedures.

Objectives. The audit’s objectives were to assess the adequacy of CF’s internal
policies that govern the intake, processing, and decision-making associated with
confidential treatment requests. In addition, our audit was planned to assess if
registrants that were provided confidential treatment by CF adhered to the SEC
rules that govern confidential treatment requests. Throughout our audit, the OIG

6
  U.S. House of Representatives Committee on Oversight and Government Reform Special Report: Public
Disclosure as a Last Resort: How the Federal Reserve Fought to Cover Up the Details of the AIG
Counterparties Bailout From the American People, January 25, 2010.
7
  Id., page 6.
8
  Federal Reserve Bank of New York: Statement Regarding Public Disclosures of AIG Concerning Maiden
Lane III LLC, January 19, 2010. Available at http://www.newyorkfed.org/markets/st100119.html.
Assessment of CF’s Confidential Treatment Processes and Procedures                   September 28, 2010
Report No. 479
                                                  iv
also tested whether CF followed its internal policies and procedures for
processing confidential treatment requests. The OIG also determined where
improvements and best practices could be implemented for the CF confidential
treatment process. However, the OIG audit was not planned to render an
opinion on the decisions made by CF with respect to grants or denials of
confidential treatment requests.

Prior OIG Audit Reports. The OIG last audit of the CF confidential treatment
process was conducted in 1994. All of the recommendations provided were
followed up on and implemented by management. The OIG more recently
performed audits/reviews of the Commission’s Office of the Secretary 9 and FOIA
Office, 10 which included examining the activities performed in these offices that
pertain to confidential treatment requests. However, our audit focused on
confidential treatment requests submitted in connection with SEC regulatory
filings under the Securities Act of 1933 and Securities Exchange Act of 1934, and
did not extend to confidential treatment granted for information related to the
SEC comment letter process.

Results. The OIG found that CF is not performing a robust review and
examination of many confidential treatment requests. Specifically, out of 3,381
confidential treatment requests submitted to CF between January 2008 through
March 2010, 2,298, or approximately 68 percent, were processed without review,
as a result of the initial screening process. A total of 789 out of 3,381, or
approximately 23 percent requests, were monitored for one or more particular
matters (e.g., duration, materiality, etc.), while 286 out of 3,381, or approximately
8.5 percent of the requests, were selected for full review. As a result, over 90
percent of confidential treatment requests submitted were not subject to a
thorough review and examination for compliance with all aspects of the
confidential treatment request rules. As a result, the OIG believes there is an
increased risk that material information to investors may not be disclosed.
Additionally, the OIG determined that the denial of a confidential treatment
request is a rare occurrence, as we only found one confidential treatment request
that CF did not grant during the scope of our review, January 2008 through April
2010. 11

Additionally, the OIG found that the use of conclusory statements in some
applicants’ analyses of the applicable FOIA exemptions and in arguments
regarding the potential competitive harm that could result if the subject matters
for which confidential treatment was requested were disclosed. The OIG also
identified instances where the scope of confidential treatment requests appeared

9
  OIG Audit Report No. 402, “Office of the Secretary,” September 20, 2005.
10
   OIG Audit Report No. 465, “Review of the SEC’s Compliance with the Freedom of Information Act,”
September 25, 2009, and OIG Audit Report No. 422, “Backlog of FOIA Requests for Comment Letters”
(March 30, 2007).
11
   Some confidential treatment requests are granted in situations where the applicant will revise their
confidential treatment request applications and reduce the scope of the initial confidential treatment request
based on comments from CF examiners or counsel.
Assessment of CF’s Confidential Treatment Processes and Procedures                         September 28, 2010
Report No. 479
                                                      v
to be overly broad. In addition, the OIG found that documentation explaining why
the subject matter of the confidential treatment request was not necessary for the
protection of investors did not always include a robust assessment of both
qualitative and quantitative factors that should be considered in assessing
materiality.

During our audit, the OIG also identified numerous cases where confidential
treatment requests were assigned for review to CF staff in Assistant Director
(AD) offices that do not normally review the SEC filings of the confidential
treatment request applicants or companies in the confidential treatment request
applicants’ industry group. CF’s Disclosure Operations function is structured into
11 AD offices that specialize in reviewing the disclosures of registrants for
various industry clusters. 12 The industry experts in each AD group are
knowledgeable of the accounting, disclosure, and technical issues associated
with their respective assigned industry and perform the file reviews for those
associated companies. However, only 247 out of 914, or 27 percent, of
confidential treatment requests received from January 2008 through December
2009 from companies in the healthcare and insurance industries were assigned
to AD office No. 1, which processes confidential treatment requests submitted by
companies in the healthcare and insurance industries. The OIG notes that CF
has established its Disclosure Operations component along AD offices
segregated by industry groups with similar accounting and financial reporting
matters. Staff who are not assigned to a confidential treatment request
applicant’s industry group may not be as knowledgeable of the subject matter of
certain confidential treatment requests, thus increasing the risk that confidential
treatment may be improperly granted for material information to investors.

Lastly, the OIG determined that CF needs to implement additional controls in its
confidential treatment request tracking database to ensure data is captured
correctly. The OIG identified some data discrepancies in the CF confidential
treatment request database. The OIG also found that the confidential treatment
request tracking database lacks certain functionality, such as the ability to track
confidential treatment requests that are modified after the initial submission. The
CF confidential treatment request tracking database is used by management as
a medium to generate performance reports. As such, the OIG determined that
the reliability, accuracy, and completeness of information contained in the
confidential treatment request tracking database is necessary to assist those
charged with oversight of and decision-making for the confidential treatment
request process.

Summary of Recommendations. This report contains eight recommendations
for CF that are designed to improve CF’s policies and procedures for processing,
screening, and examining confidential treatment requests.

12
   CF recently announced the creation of a few additional offices to focus on capital market trends,
structured finance products, and large financial services companies. See
http://www.sec.gov/news/press/2010/2010-124.htm.
Assessment of CF’s Confidential Treatment Processes and Procedures                       September 28, 2010
Report No. 479
                                                    vi
The OIG recommendations cover a facet of areas that can be implemented to
improve CF’s confidential treatment request program. The recommendations
include CF recommend to the Commission that the substantive requirements for
confidential treatment requests that are currently described in Staff Legal Bulletin
No. 1, as well as any additional substantive requirements deemed appropriate,
be codified as formal guidance for confidential treatment request applicants.
Additionally, the OIG recommends that CF revise its internal procedures for
processing confidential treatment requests to require additional documentation of
the substantive review of the materiality and competitive harm application-
specific requirements. Such additional documentation should detail the specific
qualitative and/or quantitative factors considered in assessing the materiality and
competitive harm of the confidential treatment subject matter. The OIG also
recommends that CF perform periodic internal assessments of the confidential
treatment program and verify on a periodic basis that the information that has
been granted confidential treatment has not been publicly disclosed. If CF
determines that information previously granted confidential treatment has been
publicly disclosed, it should take steps, as appropriate, to revoke the confidential
treatment grant. The OIG also recommends that CF should revise its internal
procedures for handling the initial screening of confidential treatment requests to
ensure that the materiality and competitive harm criteria are not met by simply
making conclusory statements or including boilerplate language in the
applications by requiring additional documentation of how the screening and
review process identified specific and concrete representations to support each
criteria. Within CF, the OIG believes an opportunity exists for increased
information sharing, such as our recommendation for AD offices that receive the
highest number of confidential treatment requests to provide training to CF staff
in other AD offices that review confidential treatment requests submitted by
applicants outside their assigned AD offices. The OIG also recommends that CF
add controls to the confidential treatment tracking database to ensure the
accuracy and completeness of data used by management to evaluate program
performance, and enhance the functionality of the database to allow
management to identify applicants that are consistently provided with comments
by CF to refine their confidential treatment requests.

A detailed list of our recommendations can be found in Appendix IV.




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                vii
TABLE OF CONTENTS
Executive Summary ...................................................................................................... ii

Table of Contents ....................................................................................................... viii

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 9

Findings and Recommendations ........................................................................ 10
     Finding 1: CF’s Policies Do Not Provide for In-Depth Substantive Reviews
     of Most Confidential Treatment Requests ........................................................ 10
                  Recommendation 1..................................................................... 18
                  Recommendation 2..................................................................... 19
                  Recommendation 3..................................................................... 20
                  Recommendation 4..................................................................... 20

         Finding 2: The OIG Identified Significant Use of Conclusory Statements,
         Boilerplate Language and Overly Broad Scopes in Confidential Treatment
         Requests .......................................................................................................... 21
                        Recommendation 5..................................................................... 23

         Finding 3: Many Confidential Treatment Requests are not Reviewed by
         Staff Experts in the Confidential Treatment Request Applicant’s Industry ....... 23
                       Recommendation 6..................................................................... 24

         Finding 4: CF Needs to Enhance the Application Controls in the
         Confidential Treatment Requests Database..................................................... 25
                       Recommendation 7..................................................................... 27
                       Recommendation 8..................................................................... 27

Appendices
    Appendix I: Acronyms. .................................................................................... 28
    Appendix II: Scope and Methodology .............................................................. 29
    Appendix III: Criteria ........................................................................................ 31
    Appendix IV: List of Recommendations .......................................................... 32
    Appendix V: Management Comments ............................................................. 34
    Appendix VI: OIG Response to Management’s Comments............................. 40




Assessment of CF’s Confidential Treatment Processes and Procedures                              September 28, 2010
Report No. 479
                                                         viii
Tables
     Table1: Average Confidential Treatment Request Processing Time................. 8

Figures
     Figure 1: Confidential Treatment Requests Processed in FY 2008 by CF ...... 12
     Figure 2: Confidential Treatment Requests Processed in FY 2009 by CF ...... 13




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                 ix
                    Background and Objectives

Background
Introduction. Federal securities laws generally require any company that is
publicly held or registering its securities for public sale to disclose a broad range
of financial and non-financial information in registration statements, annual
reports, and other filings made with the Securities and Exchange Commission
(SEC or Commission). 13 Companies that are registered with the SEC are
required to comply with the reporting requirements set forth by the Securities Act
of 1933 (the Securities Act), 15 U.S.C. § 77a et seq., and the Securities
Exchange Act of 1934 (the Exchange Act ), 15 U.S.C. § 78a et seq. 14 The
specific disclosure requirements for financial and non-financial information are
primarily found in Regulation S-K, 17 C.F.R. § 229.10. Regulation S-X, 17
C.F.R. § 210.1-01 et seq., sets forth the financial statement disclosure
requirements. 15

The Division of Corporation Finance (CF) assists the Commission in executing its
responsibility to oversee corporate disclosure of important information to the
investing public and manages the confidential treatment request process.
CF has a number of statutory requirements and review priorities that it must meet
to pursue its core investor protection responsibilities. For example, in addition to
processing requests for confidential treatment, CF reviews registrants’ Exchange
Act reports and reviews the financial statements of every registrant at least once
every three years, as mandated by the Sarbanes-Oxley Act of 2002. 16
Consistent with its investor protection mandate and the spirit of the Sarbanes-
Oxley Act, CF reviews a substantial number of registrants’ Exchange Act reports
much more frequently. CF further:

    •   Reviews and declares effective Securities Act registration statements;
    •   Reviews the filings of all companies registering with the Commission for
        the first time, regardless of whether they file under the Securities Act or
        the Exchange Act;
    •   Responds to requests for no action relief;
    •   Assists the Commission with rule writing;
    •   Reviews tender offers and other transactions; and
    •   Provides interpretive guidance to registrants and would-be registrants.

13
   Division of Corporation Finance Staff Legal Bulletin No.1 (with Addendum), February 28, 1997 (Addendum
included: July 11, 2001), page 2. See http://www.sec.gov/interps/legal/slbcf1r.htm.
14
   Division of Corporation Finance Overview: The Investor's Advocate. How the SEC Protects Investors,
Maintains Market Integrity, and Facilitates Capital Formation. See
http://www.sec.gov/about/whatwedo.shtml#corpfin.
15
   Division of Corporation Finance Staff Legal Bulletin No.1 (with Addendum), February 28, 1997 (Addendum
included: July 11, 2001), page 2. See http://www.sec.gov/interps/legal/slbcf1r.htm.
16
   Section 408 of Public Law 107-204, July 30, 2002, 15 U.S.C. § 7266.
Assessment of CF’s Confidential Treatment Processes and Procedures                      September 28, 2010
Report No. 479
                                                    1
Sometimes disclosure of information required by the disclosure rules (e.g.,
Regulation S-K) can negatively affect a company’s business and financial
condition because of the competitive harm that could result from the disclosure. 17
This issue can arise in connection with the requirement that a registrant file
publicly all contracts material to its business other than those it enters into in the
ordinary course of business. 18 To address the potential disclosure hardship, the
Commission has established a system that allows companies to request
confidential treatment of information filed under the Securities Act and the
Exchange Act. 19

Rules Governing CF’s Confidential Treatment Request Process. The rules
promulgated at 17 C.F.R. § 230.406, “Confidential Treatment of Information Filed
with the Commission,” and 17 C.F.R. § 240.24b-2, “Non-Disclosure of
Information Filed with the Commission and with Any Exchange” (Rules 406 and
24b-2), prescribe the requirements for obtaining confidential treatment of
information contained in documents filed under the Securities Act and the
Exchange Act, respectively, that would be exempt from disclosure under the
Freedom of Information Act (FOIA). 20 FOIA requires all federal agencies to
make specified information available to the public, including information required
to be filed publicly by Commission rules. 21 FOIA, however, includes nine specific
exemptions. 22 Rules 406 and 24b-2 require that confidential treatment requests
contain an analysis of the applicable FOIA exemptions. 23

Rule 24b-2, 17 C.F.R. § 24b-2(b)(2), requires an applicant to include the
following items, among other things, in an application to the Commission for a
confidential treatment request:

         1) Identification of the confidential portion of the filing;
         2) A statement of the grounds of objection to disclosure, including an
            analysis of how the confidential portion meets an applicable FOIA
            exemption(s); and
         3) A justification of the time period for which confidential treatment is
            requested.




17
    Division of Corporation Finance Staff Legal Bulletin No.1 (with Addendum), February 28, 1997
(Addendum included: July 11, 2001), page 2. See http://www.sec.gov/interps/legal/slbcf1r.htm.
18
   Id. Regulation S-K, Item 601, 17 C.F.R. § 229.601, requires all material contracts not made in the
ordinary course of business to be filed with the SEC as an exhibit.
19
   Division of Corporation Finance Staff Legal Bulletin No.1 (with Addendum), February 28, 1997 (Addendum
included: July 11, 2001), page 2. See http://www.sec.gov/interps/legal/slbcf1r.htm.
20
   Id.
21
   Id.
22
   See 5 U.S.C. § 552(b).
23
   17 C.F.R. § 230.406(b)(2); 17 C.F.R. § 240.24b-2(b)(2)(ii).
Assessment of CF’s Confidential Treatment Processes and Procedures                        September 28, 2010
Report No. 479
                                                     2
Similarly, Rule 406, 17 C.F.R. § 230.406(b)(2), requires that an applicant include
similar information in its request for confidential treatment. 24

CF’s Confidential Treatment Process – Intake. The confidential treatment
request process is initiated upon an applicant’s submission of a confidential
treatment request application to the SEC’s Office of the Secretary. Upon receipt
of the applicant’s confidential treatment request application, the Office of the
Secretary will acknowledge receipt with a date stamp on the application and
subsequently file it in CF’s mail slot in the Office of the Secretary. Staff from
CF’s Office of Disclosure Support (ODS) pick up applicants’ confidential
treatment request applications in person from CF’s mail slot in the Office of the
Secretary on a daily basis.

During the course of the audit, the OIG observed that upon obtaining possession
of the applicant’s confidential treatment request application, staff from CF’s ODS
enter the application as a record in CF’s confidential treatment tracking system (a
Microsoft Access database). The system assigns a control number to each
record entered into the confidential treatment tracking system. In addition, a staff
member from ODS then creates a file folder for the application and places a
confidential treatment tracking form on the cover of the file folder.

CF’s Confidential Treatment Process – Screening. Research specialists in
ODS perform a screening of the applicant’s confidential treatment request
application using CF’s confidential treatment request screening form. Per CF’s
confidential treatment request screening form, the research specialist is
responsible for populating the following information pertaining to the confidential
treatment request:

     •   Applicant’s Name.
     •   Assistant Director (AD) office number (“AD office No.” per the form).
     •   Control No. (Automatically generated by CF’s Confidential Treatment
         Tracking system).
     •   Date Request Submitted.
     •   Indication if the application is for a new request or extension of a
         confidential treatment order previously granted (“New Request or
         extension?” per the form).
     •   Form Type.
     •   File No.
     •   Date Form Filed. 25


24
   CF has acknowledged that there is a difference in the language of Rules 406 and 24b-2, as Rule 24b-2
does not include a statement similar to the provision at 17 C.F.R. § 230.406(b)(2)(iii), which requires the
applicant to include “[a] detailed explanation of why, based on the facts and circumstances of the particular
case, disclosure of the information is unnecessary for the protection of investors. However, CF has indicated
that in practice it views no difference in the requirements to which applicants must adhere to when
requesting confidential treatment under Rule 406 or Rule 24b-2.
25
   Based on a screenshot of fields from CF’s Confidential Treatment Request Tracking Database.
Assessment of CF’s Confidential Treatment Processes and Procedures                         September 28, 2010
Report No. 479
                                                     3
In addition, the research specialist is required to answer “Yes” or “No” to the
following statements (both company-related and application-related) as they
pertain to the applicant’s confidential treatment request application:

Company-Related Items 26

              Applicant is a
              If the application was submitted by a reporting company,


                Note:




Application-Related Items

         •    Applicant claims
              Applicant includes
              Applicant

              Applicant

              Applicant filed the document subject to the confidential treatment request
              on EDGAR

              Applicant requests a



26
     In the audit, we identified one additional criterion that was included in the past as part of ODS screening.




   CF Confidential Treatment Request Screening Form, April 2008.
28
   Id.
29
   Id.
30
   Id.
31
   Id.
32
   Id.
33
   Id.
34
   Id. Per CF’s confidential treatment operating procedures, CF usually does not grant confidential treatment
for a duration beyond
Assessment of CF’s Confidential Treatment Processes and Procedures                       September 28, 2010
Report No. 479
                                                         4
           Applicant provides




Subsequent to answering “Yes” or “No” to the above mentioned statements, the
research specialist in ODS proceeds to recommend the type of review the AD
office will perform. The options available to the research specialist are:

      •    “None.” 37
      •    “Full Review.”
      •    “Monitor.” 38

During the audit, the OIG learned that in cases where ODS recommends a
review level of “None,” to the AD office, ODS will prepare a draft “No Review”
letter and draft “Grant Order” for confidential treatment and forward these
documents and the confidential treatment file folder (which includes the
application initially submitted to the Office of the Secretary and a confidential
treatment request screening form) to the assigned AD office based upon the
industry group of the applicant. The OIG also learned that in cases where the
recommended level of review by ODS is “Monitor,” ODS will prepare a draft
“monitor letter.” Similarly, the OIG learned that if the recommended level of
review by ODS is “Full Review,” ODS prepares a draft “review letter.”

CF’s Confidential Treatment Process – AD Office Examination. On a
periodic basis, staff members (e.g., special counsel/attorneys) from the AD
offices assigned to examine the confidential treatment applications will pick up
applicants’ confidential treatment request file folders for their assigned offices
from ODS. Staff members are required to sign off acknowledging receipt of the
confidential treatment request file folders containing the confidential treatment
application, an unredacted copy of the filed materials, and the confidential
treatment request screening form. After obtaining the confidential treatment
request file folder, the AD office will make a determination whether to concur or
disagree with the level of review recommended by ODS.

In cases where the ODS recommended level of review is “None” and the
processing AD office concurs, the AD office will prepare the confidential
treatment grant order. In cases where the AD office does not concur with the
ODS recommended level of review of “None,” the AD office will perform some
level of review of the confidential treatment application.


35
   CF Confidential Treatment Request Screening Form, April 2008
36
   Id.
37
   This level of recommendation generally arises in instances where the research specialist answers “Yes” to
all of the application-related items.
38
   The screener is asked to indicate the subject matter to be monitored.
Assessment of CF’s Confidential Treatment Processes and Procedures                     September 28, 2010
Report No. 479
                                                     5
For applications that were recommended for a level of review of “Monitor,” the
assigned processing AD office may issue a “monitor letter” and concurrently
issue comments (written or oral) to the applicant on certain matters pertaining to
the confidential treatment application. The applicant can submit an amended
confidential treatment application in order to satisfy the concern(s) raised by the
AD office. The amended confidential treatment application will be reviewed by
the AD office, and a determination will be made whether or not to grant
confidential treatment. In cases where the AD office determines to grant the
applicant’s amended confidential treatment request, the AD office will prepare the
confidential treatment grant order.

In some cases, the AD office may perform a “Full Review” of an applicant’s
confidential treatment request. The AD office staff member (e.g., special
counsel/attorney) performing the full review/examination must complete a
confidential treatment request examination report. In the confidential treatment
request examination report, the AD office staff member will be required to answer
“Yes” or “No” to the following statements as they pertain to the applicant’s
confidential treatment request application:




CF’s Confidential Treatment Process – Grants and Denials. Upon
completion of the examination, the AD office will make a decision to grant or
deny the confidential treatment application. According to CF, the authority to
grant a confidential treatment request is limited to specific members of its staff.
In most AD offices, the staff members delegated the authority to grant requests
include the Special Counsel, Legal Branch Chief or the Assistant Director. In
cases where the AD office determines to grant the applicant’s confidential
treatment request, the AD office will prepare the confidential treatment grant
39
   CF Confidential Treatment Request Examination Report, January 2009.
40
   Id.
41
   Id.
42
   Id.
43
   Id.
44
   Id.
45
   Id.
Assessment of CF’s Confidential Treatment Processes and Procedures       September 28, 2010
Report No. 479
                                                  6
order. The OIG found during its audit that denial of a confidential treatment
request is a very rare occurrence.

Subsequent to the processing of the AD office’s determination to grant the
confidential treatment request, the application file folder is returned to ODS. The
Records Management group picks up completed confidential treatment request
files weekly and carries them to the Records Management office. A signature is
required by Records Management on the confidential treatment tracking form,
indicating receipt of the applicant’s confidential treatment request file folder at the
time they pick up the folder.

The Majority of Confidential Treatment Requests are for Material Contracts
Filed as Exhibits. The majority of confidential treatment requests received by
CF seek redactions of provisions of material contracts that are included as
exhibits in filings submitted to the Commission. Such contracts are required to
be filed under the authoritative guidance of Item 601(b)(10) of Regulation S-K.
This section requires material contracts not entered into in the ordinary course of
business to be filed as exhibits in filings made with the Commission. 17 C.F.R. §
229.601(b)(10). Item 601(b)(10) of Regulation S-K also contains four exceptions
whereby contracts even made in the ordinary course of business have to be filed
unless they are immaterial in amount or significance. Generally, information in
material contracts such as pricing terms, technical specifications and milestone
payments are considered to potentially cause substantial harm to the competitive
position of the applicant if publicly disclosed. While the majority of confidential
treatment requests are associated with provisions in material contracts required
to be filed under S-K Item 601 “Exhibits,” it is CF’s view that such items are
eligible for confidential treatment, as CF interprets the word “required” in Staff
Legal Bulletin (SLB) No. 1 as follows:

        CF considers if the confidential portion in an exhibit (e.g.,
        contract) is required to be disclosed based upon existing
        disclosure requirements (e.g., an S-K required disclosure
        such as the identity of a 10 percent customer per 17 C.F.R.
        § 229.101(c)(vii)).

        CF’s policy is to not grant confidential treatment to such
        items required by other existing disclosure requirements.
        Items in exhibits (e.g., contracts) that are the subject matter
        for confidential treatment requests are not considered
        “required” information if the subject matter is not required by
        other existing disclosure requirements and the subject
        matter is included in the filing solely as a result of it being a
        component of the exhibit. 46



46
  Testimonial evidence based on inquiry with an Associate Director in CF’s Disclosure Operations.
Assessment of CF’s Confidential Treatment Processes and Procedures                     September 28, 2010
Report No. 479
                                                   7
While the contracts filed under Regulation S-K, Item 601, are assumed to be
material, the granting of confidential treatment to portions of material contracts
filed as exhibits requires a judgment by the CF counsel that the terms of a
material contract that are the subject matter of a confidential treatment request
are immaterial to an investor. In our sample, the OIG identified a few instances
where both parties to a contract filed a confidential treatment request.

Confidential Treatment Request Processing Time. CF’s goal is to complete
the initial review of confidential treatment requests filed pursuant to Rule 24b-2
within 28 days after the filing date. Upon completion of the review of the
confidential treatment request, comments may be issued (either verbally or
written) to the applicant. If the staff has no comments, an order will be issued
granting the confidential treatment request. If the staff issues comments,
applicants must respond to those comments within 21 days of the date of the
comment letter. If the applicant does not respond within this period, the staff will
consider, pursuant to its delegated authority from the Commission, what action is
warranted based on the record before it, including whether to grant, or deny the
confidential treatment application. The staff will base its decision on the initial
application and all amendments and supplemental information received.

Over a span of ten years CF has made significant strides in reducing the average
processing time for confidential treatment requests. As shown in Table 1 below,
the average number of days it takes to render a confidential treatment request
disposition (grant or denial) has improved dramatically in the past few years. CF
informed the OIG that in 2008 it was able to reduce a substantial backlog of
confidential treatment requests that had been submitted in previous years.

Table 1: Average Confidential Treatment Request Processing Time 47
                   2001      2002      2003     2004   2005    2006     2007     2008     2009     2010
 Average           198       178       204      207    293     279      160      77       61       37
 Number of
 Days to
 Render A
 Disposition
Source: SEC’s Division of Corporation Finance


CF’s Overall Disclosure Review Program is Selective. According to CF, the
Division’s selective review program allows it to balance the need to conduct a
sufficient level of review of each confidential treatment request to make the
necessary findings, with the need to allocate resources to meet all the
requirements of its mission. The purpose of the selective review program is to
provide a sufficient level of review for each request so that legal staff in the AD
offices can determine whether a request demonstrates all the required elements
47
   The OIG did note a few instances where the processing time was significantly longer than the average
processing time. One confidential treatment request was granted after the requested period for confidential
treatment had expired. Within our sample, the OIG found instances where companies did not submit all of
the required information for exhibits which sometimes led to amended confidential treatment requests
resulting in lengthier processing times.
Assessment of CF’s Confidential Treatment Processes and Procedures                      September 28, 2010
Report No. 479
                                                       8
needed for a valid confidential treatment request under Rules 406 and 24b-2. 48
Further, the purpose is to permit staff to identify requests that either have
demonstrated deficiencies or have other characteristics that might require further
review. 49

Based on CF’s overall disclosure program, CF has set a target goal to perform a
review of the filings of at least 33 percent of Exchange Act reporting
companies. 50 This is consistent with the requirement under the Sarbanes-Oxley
Act of 2002 that requires companies to undergo a filing review at least once
every three years. 51 CF uses a risk assessment (risk-based approach) for
determining which companies are selected for the overall filing review. Although
CF does not have a formal policy in place for conducting a risk assessment for
confidential treatment requests, CF informed the OIG that there are certain types
of confidential treatment requests for which CF will more likely perform an in-
depth review




Objectives
The audit’s objectives were to assess the adequacy of CF’s internal policies that
governed the intake, processing, and decision-making associated with
confidential treatment requests. In addition, our audit was planned to assess if
registrants that were provided confidential treatment by CF adhered to the SEC
rules that govern confidential treatment requests. Throughout our audit, the OIG
tested whether CF followed its internal policies and procedures for processing
confidential treatment requests. The audit was also intended to determine where
improvements and best practices could be implemented for the CF confidential
treatment process. However, the audit was not planned to render an opinion on
the decisions made by CF with respect to grants or denials of confidential
treatment requests.




48
   Memorandum from CF (September 2, 2010) Re: Division’s Response to Discussion Draft – Assessment of
Corporation Finance’s Confidential Treatment Processes and Procedures.
49
   Memorandum from CF (September 2, 2010) Re: Division’s Response to Discussion Draft – Assessment of
Corporation Finance’s Confidential Treatment Processes and Procedures.
50
   CF’s target percentage of reporting companies reviewed per the SEC 2009 Performance and
Accountability Report.
51
   Section 408 of the Sarbanes-Oxley Act of 2002, 15 U.S.C. § 7266. “Enhanced Review of Periodic
Disclosures by Issuers.”
Assessment of CF’s Confidential Treatment Processes and Procedures                  September 28, 2010
Report No. 479
                                                  9
               Findings and Recommendations

Finding 1: CF’s Policies Do Not Provide for
In-Depth, Substantive Reviews of Most
Confidential Treatment Requests
          CF’s internal policies and procedures do not require the
          majority of confidential treatment requests to be thoroughly
          examined and reviewed for compliance with the confidential
          treatment request rules. As a result, there is an increased
          risk that confidential treatment will be improperly granted for
          information that may be considered material information to
          investors.

CF’s Confidential Treatment Request Policies and Procedures. During our
review of CF’s internal policies and procedures for the processing of confidential
treatment requests, we found that confidential treatment requests typically go
through an initial screening process by ODS. 52 In the initial screening process,
research specialists in ODS screen confidential treatment request applications
using a set of company-specific and application-specific criteria. 53

The research specialists inspect the confidential treatment request application
and indicate in the application where the applicant has made representations
regarding the FOIA exemption applicable to the confidential treatment request
subject matter, why the information that is the subject of the confidential
treatment request is not necessary for the protection of investors, and how
disclosure of the information would cause competitive harm. We found that the
research specialists, however, do not perform any substantive evaluation of the
aforementioned items identified in the confidential treatment request application.

At the conclusion of the screening process, the research specialist in ODS will
make a recommendation of the type of review to be performed by the AD office.
The following options are available for recommendation:

      •    “No Review.” 54
      •    “Full Review.”
      •    “Monitor.” 55
52
   Division of Corporation Finance Operating Procedures Manual, Confidential Treatment Requests
(December 2008).
53
   See pages 4 and 5 in the background section above for the company-specific and application-specific
criteria.
54
   This level of recommendation generally arises in instances where the research specialist answers “Yes” to
all of the application-related items.
55
   Where this option is recommended, the screener will indicate to the Assistant Director’s office the subject
matter to be monitored.
Assessment of CF’s Confidential Treatment Processes and Procedures                       September 28, 2010
Report No. 479
                                                     10
In instances where the ODS recommended level of review was “No Review” and
the processing AD office concurs, the AD office will prepare the confidential
treatment grant order. According to CF, if the AD office staff member decides
that an additional, substantive review is necessary because legal judgment is
needed to determine whether a particular assertion is supportable, the staff
member may recommend an additional review of that matter. However, we
found rare instances when the AD office did not concur with ODS’
recommendation of “No Review,” or conducted any substantive evaluation of the
application after such a recommendation was made. We also found no
documentation of the factors considered by the AD office in determining whether
or not to concur with the “No Review” recommendation.

For applications that were recommended with a level of review of “Monitor,” the
assigned processing AD office may issue a “monitor letter,” and concurrently
issue comments (written or oral) to the applicant on certain matters pertaining to
the confidential treatment application.

When it has been determined that there is to be “full review” of a confidential
treatment application, an examiner in the assigned AD office will perform a full
review, which will include a review of the applicant’s confidential treatment
request and the screening form completed by ODS, and completion of an
examination report to document the results of the full review. Special Counsel in
each AD office will perform a review of the examiner’s report and discuss the full
review with the examiner. Key judgments and factors considered in evaluating
the applicant’s confidential treatment request are discussed at length, and
comments are prepared to be issued to the applicant (if applicable) to revise the
confidential treatment requests.

If a confidential treatment request is filed by an applicant that concurrently has an
open filing review being performed by CF, the confidential treatment request is
generally reviewed by the AD office performing the open filing review. 56 In
addition, if the AD office is performing a review of the filing referenced in the
confidential treatment application, the AD office will review the application and
filing to ensure that the material omitted in the filing reconciles with the material
for which requested for confidential treatment is requested in the application.
Generally, a full review is performed for a confidential treatment request
submitted in connection with an initial registration statements

                     the confidential treatment request. CF policies allow for an
AD office to override the level of review recommended by ODS.




56
  CF is a required under the Sarbanes-Oxley Act of 2002 to perform some level of review of each reporting
company at least once every three years. See Section 408 of the Sarbanes Oxley-Act of 2002, 15 U.S.C. §
7266, “Enhanced Review of Periodic Disclosures by Issuers.”
Assessment of CF’s Confidential Treatment Processes and Procedures                    September 28, 2010
Report No. 479
                                                  11
The Majority of Confidential Treatment Requests are Screened with a
Recommendation for No Review by the AD Offices. During the audit, we
reviewed all confidential treatment requests submitted to CF for the period from
January 2008 to March 2010. Based on our scope, we found that CF granted
approximately 87 percent (2,956 of 3,381) of the confidential treatment requests
it received, and an additional 9.3 percent (316 of 3,381) of the confidential
treatment requests were still pending. Further, approximately three percent (108
of 3,381) of the confidential treatment requests were withdrawn during this
period. Of the 3,381 confidential treatment requests made from January 2008 to
March 2010, CF only denied one confidential treatment request.

We also found that approximately 68 percent (2,298 of 3,381) of the confidential
treatment requests submitted during this period were processed without review,
as a result of the initial screening process. Approximately 23 percent (789 of
3,381) of requests were monitored for one or more particular matters (e.g.,
duration, materiality), while only approximately 8.5 percent (286 of 3,381) were
selected for full review.

Overall, we found that more than 90 percent of the confidential treatment
requests CF processed from October 2008 to March 2010 were granted. As
shown in Figure 1, there were a total of 2,444 confidential treatment requests
processed in FY 2008, of which 1,556 or approximately 64 percent were
processed with no review beyond the screening process. 57

         Figure 1: Confidential Treatment Requests Processed in
         FY 2008 by CF




          Source: SEC’s Division of Corporation Finance




57
  The high number of confidential treatment requests processed in FY 2008 is related to CF’s clearing of a
backlog of confidential treatment requests submitted in previous fiscal years.
Assessment of CF’s Confidential Treatment Processes and Procedures                     September 28, 2010
Report No. 479
                                                          12
As Figure 2 demonstrates, the percentage of confidential treatment requests that
were not reviewed in FY 2009 is comparable to the data for FY 2008. In FY
2009, 65 percent (958 of 1,472) of confidential treatment requests were not
reviewed beyond the initial screening process.

          Figure 2: Confidential Treatment Requests Processed in
          FY 2009 by CF




          Source: SEC’s Division of Corporation Finance


Ease of Compliance with the Procedural Requirements of the Rules. Upon
review of Rules 406 58 and 24b-2, 59 which govern the confidential treatment
process, OIG determined that these rules are procedural, rather than
substantive, in nature, and focus exclusively on the requirements for what must
be included in a confidential treatment application submitted to the Commission.
Furthermore, Rules 406 and 24b-2 contain no specific provisions that restrict the
scope of the confidential treatment that can be requested by an applicant. The
rules also do not specify on what grounds a confidential treatment request should
or should not be granted. The decision to grant or deny an applicant’s request is
solely at the discretion of CF examiners and legal counsel. 60

An Associate Director for CF’s Disclosure Operations stated that CF does not
wish to have a narrow scope for the nature of items that could potentially be the
subject matter of a confidential treatment request. Further, CF does not want to
create a bright-line test or enumerate a specific set of items that are permitted to
be submitted in a confidential treatment request.



58
   17 C.F.R. § 230.406, “Confidential Treatment of Information Filed with the Commission.”
59
   17 C.F.R. § 240.24b-2, “Non-Disclosure of Information Filed with the Commission and with Any
Exchange.”
60
   The confidential treatment request rules provide an outlet for an applicant to appeal a denial of a
confidential treatment request.
Assessment of CF’s Confidential Treatment Processes and Procedures                         September 28, 2010
Report No. 479
                                                          13
Our audit found that as a result of the procedural requirements, the screening
process and the lack of substantive review, achieving compliance with the
requirements of the rule may become a rote process, whereby applicants can
mimic the language in the requirements and create an application that will likely
result in a “No Review” finding by a CF research specialist.

We found that in many cases, applicants include sub-title headings in their
applications to identify each requirement to be included per Rules 406 and 24b-2,
so that research specialists can easily conclude that each requirement has been
met. We found an extraordinary level of consistency in the form and presentation
of a number of confidential treatment requests that we examined. Such
consistency may be attributed to many applicants employing to assist in the
preparation of confidential treatment applications legal counsel who are
knowledgeable of the SEC’s requirements pertaining to confidential treatment
requests and routinely prepare confidential treatment requests for various SEC
registrants.

We also found during the audit that the majority of confidential treatment
requests leave the screening process with a recommended level of “No Review,”
as the screening process does not involve a substantive evaluation of the
application-specific criteria. The research specialists in ODS only verify that
representations or statements are made in the application regarding how the
subject matter of the confidential treatment request meets a FOIA exemption and
that this subject matter is not material to investors. CF’s policies currently do not
provide for any in-depth analysis to verify the reasonableness of the assertions
made by applicants regarding the application-specific criteria. Thus, it is not
difficult for a company to comply with the procedural requirements of the
confidential treatment request rules, as they are only required to affirmatively
state that they comply with the criteria, and their applications are easily reviewed
and verified by CF.

A Deeper Review of Materiality and Competitive Harm Arguments Is
Needed. The OIG found that several components of a confidential treatment
request require a substantive analysis, which is currently not being conducted.
The issues related to why disclosure of the confidential portion would cause
competitive harm, and why disclosure of the confidential portion is not necessary
for the protection of investors, should be analyzed in more than a rote fashion.
There are numerous cases in which courts have expressed opinions on what
constitutes competitive harm, as well as the concept materiality. The Supreme
Court has taken the position that a fact is material if there is “a substantial
likelihood that the disclosure of the omitted fact would have been viewed by the
reasonable investor as having significantly altered the ‘total mix’ of information
made available.” 61



61
  Basic, Inc. v. Levinson, 485 U.S. 224, 231-32 (1988)
Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                14
According to CF, confidential treatment request applicants must assess
materiality from the perspective of their “business, financial condition, and
financial results.” 62 In addition, SLB No.1 notes that the determination of
materiality depends upon the facts and circumstances of each particular request
for confidential treatment. The assessment of an applicant’s argument that the
information is not material to investors is subjective by nature and should be
based upon qualitative and quantitative factors. Given that CF takes a broad view
of the term “investors,” 63 which includes existing holders with a financial interest
(e.g., whether debt or equity and long or short positions), the analysis to
determine if the subject matter of the confidential treatment request is material to
investors is an analysis that requires significant judgment and can be difficult, as
the investment objectives of individual investors are not all the same and a
determination of what constitutes material information can differ from investor to
investor.

Staff Accounting Bulletin No. 99 (SAB 99) describes the importance of the
concept of materiality with respect to financial statements. SAB 99 requires that
an assessment of materiality include both quantitative and qualitative factors.
We found that in many cases, companies’ confidential treatment applications do
not describe any qualitative or quantitative factors showing why the information is
not material to investors or necessary for the protection of investors. We also
found that CF does not have a specific policy regarding how an applicant’s
submission regarding materiality should be documented or analyzed. We further
found in numerous cases, the entirety of the materiality analysis performed by CF
was in the screening process which only required that the screener respond with
a “Yes” or “No” checked next to a question indicating whether the applicant



Similarly, the representations made on the behalf of confidential treatment
applicants pertaining to the competitive harm that could arise from disclosure of
the subject matter of the confidential treatment request is a component that
involves significant judgment. According to the confidential treatment request
requirements, an applicant must cite the FOIA exemption it believes is applicable
to the confidential treatment request. We found that the majority of applicants
stated that the subject matter of the confidential treatment request fell within the
scope of Exemption four, 64 which covers “trade secrets and commercial or
financial information obtained from a person [that is] privileged or confidential.” 65
Moreover, a significant number of these confidential treatment requests pertained

62
   Division of Corporation Finance Staff Legal Bulletin No.1 (with Addendum), February 28, 1997 (Addendum
included: July 11, 2001), page 4. See http://www.sec.gov/interps/legal/slbcf1r.htm
63
   CF believes that the term “investors” should be treated broadly. However, CF does not consider investors
in the competitor of an applicant in its analysis of whether the confidential portion is material to investors
(sometimes stated by applicants “unnecessary for the protection of investors”).
64
   5 U.S.C. § 552(b)(4).
65
   See CF’s Staff Legal Bulletin No. 1 (with Addendum), February 28, 1997, page 2 (Addendum included:
July 11, 2001).
Assessment of CF’s Confidential Treatment Processes and Procedures                           September 28, 2010
Report No. 479
                                                     15
to commercial or financial information that was purportedly privileged or
confidential. In order for an applicant to establish that the subject matter of the
confidential treatment was request qualifies as confidential commercial or
financial information, the applicant is supposed to establish that the subject
matter is commercial or financially related, obtained from a “person,” and
privileged or confidential. 66

A number of confidential treatment requests the OIG reviewed included
statements that courts have taken broad views as to whether information is
classified as commercially or financially related. The requests also contained
statements to the effect that anything related to a company’s generation of profits
can be considered commercial or financial information based on applicable court
cases. Applicants also referenced particular legal decisions in attempting to
establish that the redacted information is actually confidential or privileged, citing
the fact that the information would “cause substantial harm to the competitive
position of the [company.]” 67 Based on our review, we have determined that
many confidential treatment requests included statements made on behalf of the
applicant that would require significant judgments to be made by CF to determine
if the application fell within the FOIA exemption relied on by the applicant.

For example, a large company submitted a confidential treatment request
pertaining to an exhibit filed with a 10-Q quarterly report. The exhibit was a
separation agreement with a former senior executive officer of the company. The
agreement included a restrictive covenant provision that prohibited the departing
senior executive from being employed by, providing advice to or acting as a
consultant for a number of companies listed in the agreement as the company’s
competitors.




                                                                .

Further, we found a number of confidential treatment requests that appeared to
be difficult to assess for both materiality and competitive harm, as the facts and
circumstances involved significant subjective judgments and analysis on the part
of CF counsel. Yet, we found that in numerous cases, such confidential
treatment requests were granted with limited evidence of a review of any
qualitative or quantitative factors pertinent to the materiality and competitive harm

66
   The Department of Justice Guide to the Freedom of Information Act, 2009 Edition, “Exemption 4”, page
263, http://www.justice.gov/oip/foia_guide09/exemption4.pdf.
67
   Public Citizen Health Research Group v. Food and Drug Administration, 704 F.2d 1280, 1290-1291 (D.C.
Cir. 1983).
Assessment of CF’s Confidential Treatment Processes and Procedures                     September 28, 2010
Report No. 479
                                                  16
representations after the initial screening. This initial screening simply verified
that the applicant claimed the subject matter of the confidential treatment request
was not material to investors and met an applicable FOIA exemption and
included some manner of legal analysis.

Need for Continuous Monitoring. The OIG learned that CF currently does not
perform periodic internal audits to verify that its staff are screening and
examining confidential treatment requests in accordance with CF policy. Based
on a review of the sample files examined in our audit, we determined that a
periodic review could help CF identify best practices and also identify instances
where sufficient review is not conducted. An internal monitoring program could
also help CF identify issues arising in the confidential treatment request program
on a timelier basis and take corrective action sooner to improve its program.

Additionally, OIG found that CF currently does not perform any periodic
assessments to determine if the subject matter of a confidential treatment
request has been disclosed by an applicant after confidential treatment has been
grant. Public disclosure of the subject matter of a confidential treatment request
negates the effectiveness of the confidential treatment order and should prompt
CF to terminate the confidential treatment that has been granted. The OIG also
found that CF does not perform any checks to determine if subsequent filings
have any effect on the subject matter of a previous confidential treatment request
that was granted. For example, we found an instance where a company
submitted a confidential treatment application associated with a stock purchase
agreement that included a request to redact information concerning its ability to
manage pending litigation strategies. Before the confidential treatment request
was granted, the company publicly disclosed that the pending litigation had been
settled and also filed an amended stock purchase agreement that included
provisions that deleted clauses in the original stock purchase agreement.
However, these deleted clauses remained a part of the subject matter of the
confidential treatment request.

Requirements Not Codified in Rules. In reviewing management’s policies for
confidential treatment requests, the OIG further determined that the requirements
to which an applicant must adhere when submitting a confidential treatment
request are actually not codified in Rules 406 and 24b-2, but are contained in
CF’s SLB No. 1. 68 In a number of comment letters CF issued to confidential
treatment applicants, CF directed the applicant to seek guidance concerning the
requirements for the confidential treatment request in SLB No.1 and not Rules
406 and 24b-2. 69 CF’s SLB No. 1 specifies what an applicant must provide in
order to have a request for confidential treatment granted. SLB No. 1 also
contains the requirements that applicants should follow when requesting
confidential treatment of material contained in filings. For example, SLB No. 1

68
   Staff Legal Bulletin No. 1 is not an official SEC rule and does not have the same level of authority as
Rules 406 and 24b-2.
69
   Based on the OIG’s inspection of a sample of confidential treatment request files obtained from CF.
Assessment of CF’s Confidential Treatment Processes and Procedures                         September 28, 2010
Report No. 479
                                                    17
states that confidential treatment cannot be granted if the information has been
publicly disclosed and notes that confidential treatment should not be requested
for required and/or material information. 70 It also includes the following
requirements for an applicant to follow when submitting a request:

     1. The application should not be overly broad.
     2. Applicants must include an analysis of why the confidential portion meets
        a FOIA exemption.
     3. Applicants must specify a particular duration for which it requests the SEC
        to keep the information confidential.
     4. Applicants must clearly identify the confidential portion of the application.
     5. Applicants must consent to the release of the information for official
        purposes. 71

These requirements, as contained in CF’s internal SLB No.1, govern the process
for approving confidential treatment requests. Thus, OIG determined that the
Commission could achieve greater transparency by codifying these requirements
in its formal rules, which are subject to notice and comment from the public.

Conclusion. As a result of CF granting an applicant’s confidential treatment
request, portions of materials filed with the Commission are not publicly
disclosed. Given the high number of confidential treatment requests that are not
subject to full review, there is a risk that information that is material to investors is
not being fully disclosed. The high degree of subjectivity particularly with regard
to competitive harm and materiality analyses necessitates a more substantive
review. Yet, most applications are being approved after an initial screening
process that is not substantive in nature and verifies only that the applicant
indicated that it met the requirements.

        Recommendation 1:

        The Division of Corporation Finance should recommend to the
        Commission that the substantive requirements for confidential treatment
        requests that are currently described in Staff Legal Bulletin No. 1, as well
        as any additional substantive requirements deemed appropriate, be
        codified as formal guidance for confidential treatment applicants.

        Management Comments. CF does not concur with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. During the audit, the OIG found that CF’s Staff Legal
        Bulletin No. 1 sets forth the views of CF regarding the requirements a
        registrant must satisfy when requesting confidential treatment of

70
   Division of Corporation Finance Staff Legal Bulletin No.1 (with Addendum), February 28, 1997 (Addendum
included: July 11, 2001), pages 2-4. See http://www.sec.gov/interps/legal/slbcf1r.htm.
71
   Id. pages 5-6.
Assessment of CF’s Confidential Treatment Processes and Procedures                      September 28, 2010
Report No. 479
                                                   18
        information that otherwise is required to be disclosed in registration
        statements, periodic reports and other documents filed with the SEC.
        Although CF claims in its Management Comments that Staff Legal Bulletin
        No. 1 does not represent the substantive requirements that a company
        must meet in order to request confidential treatment, the audit found that
        the requirements to which an applicant must adhere when submitting a
        confidential treatment request are contained in CF’s Staff Legal Bulletin
        No. 1 and that in a number of comment letters CF issued to confidential
        treatment applicants, CF directed the applicant to seek guidance
        concerning the requirements for the confidential treatment request in Staff
        Legal Bulletin No. 1 and not Rules 406 and 24b-2.

        Thus, our position remains that CF should recommend that the
        Commission codify the substantive requirements currently described in
        Staff Legal Bulletin No. 1, as well as any additional substantive
        requirements deemed appropriate for confidential treatment request
        applicants.

        Recommendation 2:

        The Division of Corporation Finance should revise its internal procedures
        for processing confidential treatment requests to require additional
        documentation of the substantive review of the materiality and competitive
        harm application-specific requirements. Such additional documentation
        should detail the specific qualitative and/or quantitative factors considered
        in assessing the materiality and competitive harm pertinent to the subject
        matter of the confidential treatment request.

        Management Comments. CF has partially concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. While the OIG acknowledges and appreciates CF’s
        concerns with the commitment of staff resources that are needed to fully
        implement this recommendation, our audit found that a number of
        requests that were granted did not contain sufficient documentation of the
        factors CF considered to determine why the information was not material
        to investors. Without sufficient documentation providing the quantitative
        and/or qualitative factors considered in the materiality analysis of a
        confidential treatment request, CF lacks critical support or evidence to
        demonstrate that a full and appropriate level of review was conducted.
        Therefore, we believe CF should reconsider its decision and fully
        implement this recommendation.




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                19
        Recommendation 3:

        The Division of Corporation Finance should revise its internal procedures
        to require additional documentation of the Assistant Director Office’s
        review of the Office of Disclosure Support’s recommendations of “No
        Review” to document the factors considered in making the determination
        that no review is required.

        Management Comments. CF has concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that CF has concurred with this
        recommendation.

        Recommendation 4:

        The Division of Corporation Finance (CF) should perform periodic internal
        audits of the confidential treatment process to provide for continuous
        monitoring of the confidential treatment program. As part of these periodic
        internal audits, the CF should verify on a periodic basis that the
        information for which confidential treatment was granted has not been
        publicly disclosed. If CF determines that information previously granted
        confidential treatment has been publicly disclosed, it should take steps, as
        appropriate, to revoke the confidential treatment grant.

        Management Comments. CF has partially concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that CF agrees with the essence of this
        recommendation. While the OIG acknowledges and appreciates CF’s
        concerns with the commitment of staff resources, our audit found that CF
        currently does not perform any procedures to monitor whether
        confidentiality has been maintained after a grant order is issued. The OIG
        believes that the failure to maintain the confidentiality of the subject matter
        contained in the confidential treatment request negates the effect of the
        confidential treatment order. Therefore, OIG requests that CF reconsider
        its position and fully implement this recommendation.




Assessment of CF’s Confidential Treatment Processes and Procedures     September 28, 2010
Report No. 479
                                                20
Finding 2: The OIG Identified Significant Use
of Conclusory Statements, Boilerplate
Language and Overly Broad Scopes in
Confidential Treatment Requests
        Numerous confidential treatment requests appeared to be
        overly broad and included conclusory statements and
        boilerplate language in the applicants’ analysis of
        competitive harm and materiality.

Companies’ Confidential Treatment Requests Failed to Contain Specific
Statements. As noted above, SLB No. 1 contains the following content
requirements for an applicant to follow when submitting a confidential treatment
request:

    1. The application should not be overly broad.
    2. Applicants must include an analysis of the why the confidential portion
       meets a FOIA exemption.

In the sample of confidential treatment requests the OIG tested, we found
numerous confidential treatment requests that appeared to be overly broad.
Many of these requests included boilerplate language and conclusory statements
in the applicant’s analysis of the applicable FOIA exemption(s) and in arguments
regarding the potential competitive harm that would result if the subject matter of
the confidential treatment request were disclosed. In addition, we found that
confidential treatment request applications did not always include documentation
explaining why disclosure of the subject matter of the confidential treatment
request was not necessary for the protection of investors and did not always
include a robust assessment of the qualitative and quantitative factors that
should be considered in assessing materiality. For example, in a confidential
treatment request submitted by one company, the application included simply the
following conclusory phrase supporting the argument for why disclosure of the
subject matter of the confidential treatment request was not necessary for the
protection of investors:

        The applicant does not believe the redacted details are
        material to an investor's decision to invest. Instead,
        disclosure would be material to the applicant's competitor
        and would harm the applicant's investors.

In the above instance, CF did not select this confidential treatment request for a
full review and did not perform a substantive evaluation of whether the
information was necessary for the protection of investors even though the
language in the application was overly broad and did not provide any substantive

Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                21
basis for the request for confidential treatment. In instances when CF does not
perform a significant review, conclusory statements and boilerplate language are
unlikely to be identified and applicants are unlikely to revise their confidential
treatment requests to provide a better analysis of how the subject matter of the
confidential treatment request meets an applicable FOIA exemption or why the
information is not necessary for the protection of investors.

The ODC Screening Lends Itself to Conclusory, Boilerplate Statements in
the Applications. The “Confidential Treatment Request Screening Form”
utilized by the research specialists in the ODS screening process, identifies the
questions for which a “Yes” or “No” answer is to be given, as follows:




Thus, for example, with respect to the issue of “materiality,” the application
passes the initial screening if the applicant
                                                           There is no requirement
that the applicant provide more than conclusory, boilerplate language that the
information is not material.

The OIG determined that having a screening process by which conclusory and
boilerplate language that criteria are met simply passes through an initial
approval stage does not constitute a useful manner of review of confidential


72
   CF Confidential Treatment Request Screening Form, April 2008.
73
   Id.
74
   Id.
75
   Id.
76
   Id.
77
   Id. Per CF’s confidential treatment operating procedures, CF usually does not grant confidential treatment
for a duration beyond
78
   CF Confidential Treatment Request Screening Form, April 2008.
79
   Id.
Assessment of CF’s Confidential Treatment Processes and Procedures                       September 28, 2010
Report No. 479
                                                    22
treatment requests, particularly when, in most of the cases, this initial screening
review is the only review conducted of an application.

        Recommendation 5:

        The Division of Corporation Finance should revise its internal procedures
        for handling the initial screening of confidential treatment requests to
        ensure that the materiality and competitive harm criteria are not met by
        simply making conclusory statements or including boilerplate language in
        the applications by requiring additional documentation of how the
        screening and review process identified specific and concrete
        representations to support these criteria.

        Management Comments. CF has partially concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. While the OIG acknowledges that the identification of
        specific representations may require the commitment of additional
        resources we found, and it is not disputed, that numerous applicants’
        requests contained boilerplate language and conclusory statements. The
        audit found that these requests were not always reviewed beyond the
        screening process, which is not intended to focus on the quality of the
        responsive portions of the requests. Without a more in-depth review of
        the quality of representations for the materiality analysis and a competitive
        harm argument associated with a confidential treatment request, the OIG
        notes that information material to investors that may be needed for them
        to make informed decisions, may not always be disclosed. As such, the
        OIG would like CF to reconsider implementing this recommendation in full.

Finding 3: Many Confidential Treatment
Requests are Not Reviewed by Staff Experts
in the Confidential Treatment Request
Applicant’s Industry
        The OIG identified a significant number of confidential
        treatment requests that were not assigned to the appropriate
        industry group of the applicant for processing.

Some AD Offices Receive a Disproportionate Number of Confidential
Treatment Requests. CF’s Disclosure Operations function is structured into
various AD offices that specialize in reviewing the disclosures of registrants for
different industry clusters. The industry experts in each AD group are
knowledgeable of the accounting, disclosure and technical issues associated


Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                23
with their respective assigned industry and perform the filing reviews for
companies within that industry.
A significant number of confidential treatment requests are not assigned for
processing to the industry group of the applicant. For example, a total of 914 of
2,970 confidential treatment requests received from January 2008 through
December 2009 were from companies in the healthcare and insurance
industries. Based on CF’s internal structure, healthcare and insurance
companies’ filings and confidential treatment requests should have been
assigned to AD office No. 1, which has expertise in the healthcare and insurance
industries. However, the OIG found that only 27 percent (247 of 914) of the
confidential treatment requests submitted by healthcare and insurance
companies were actually processed and reviewed by AD office No. 1.

We found that the high concentration of confidential treatment requests from a
few industry groups is likely a significant factor resulting in the assignment of
confidential treatment requests to AD offices that are not experts in the industry
groups of the applicants. Of the 11 AD offices in CF’s Disclosure Operations, 80
about a third of all confidential treatment requests came from companies in the
industry group assigned to AD office No. 1 (Healthcare/Insurance), and close to
half (approximately 47 percent) came companies in the industry group assigned
to either AD office No. 1 and AD office No. 10. We understand that large
numbers of companies in the healthcare industry have biotech and
pharmaceutical contracts that contain sensitive information about patents and
trade secrets and, therefore, prompt a higher number of confidential treatment
requests compared to other industry groups. Our audit found that, there is an
increased risk that a CF official in an AD office outside of the confidential
treatment applicant’s industry group may not evaluate an application with the
same level of expertise as an individual assigned to the applicant’s industry
group due to a lack of familiarity of the subject matter of the confidential
treatment request. This may cause certain confidential treatment requests to be
granted where confidential treatment is, in fact, not warranted.

        Recommendation 6:

        The Assistant Director offices with the highest percentage of confidential
        treatment requests (i.e., Assistant Director office No. 1 and Assistant
        Director office No. 10) should provide training to staff in the other Assistant
        Director offices in order to share knowledge about specific industry
        matters with those who will be performing reviews of confidential treatment
        requests for companies in industries outside of their assigned industry
        group.



80
   CF recently announced the creation of a few additional offices to focus on capital market trends,
structured finance products, and large financial services companies. See
http://www.sec.gov/news/press/2010/2010-124.htm.
Assessment of CF’s Confidential Treatment Processes and Procedures                       September 28, 2010
Report No. 479
                                                   24
        Management Comments. CF has concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that CF has concurred with this
        recommendation.

Finding 4: CF Needs to Enhance the
Application Controls in the Confidential
Treatment Request Database
        The OIG identified data errors in the confidential treatment
        request population that CF uses to evaluate the confidential
        treatment request program’s performance measurements.
        These errors resulted from the lack of certain controls over
        data residing in the confidential treatment request tracking
        database.

Confidential Treatment Request Tracking Database. We identified in our
review of the population of confidential treatment requests some data anomalies
that resulted from the lack of controls in the confidential treatment request
tracking database. We found instances where certain dates were incorrectly
entered by end users; however, the system did not detect such errors. For
example, in several instances, the disposition date of the confidential treatment
request was before the date the confidential treatment request was received by
CF. In addition, some data fields, such as the date of receipt of the request by
CF, were not populated at all.

Additionally, we found that management does not currently have the capability in
the confidential treatment request tracking database to identify requests that
were modified from their initial state. Thus, some data analysis by management
may contain inaccurate information, and certain items that should be prioritized
may not be given the appropriate priority (e.g., confidential treatment requests
that have been pending for a lengthy period of time and need to have processing
completed). The OIG learned that CF management monitors the performance of
the confidential treatment request program through various reports generated
from data maintained in the confidential treatment tracking system. During the
audit, the OIG found that CF management pays close attention to confidential
treatment requests that have been in a pending status for a lengthy period of
time. If data is not accurately captured in the confidential treatment request
tracking database, there is a potential that management will not track confidential
treatment requests that have been in a pending state for a significant period of
time. Additionally, the data that management uses to evaluate its performance
such as average processing time may be skewed due to errors in the data.


Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                25
The Tracking Database Lacks the Ability to Track Modified Confidential
Treatment Requests. During the audit, the OIG also found that CF does not
currently have the ability to track confidential treatment requests that are
modified in scope after the initial submission to CF but before confidential
treatment is granted. For CF’s purposes, all requests for which any aspect of the
application has been modified from its initial state are categorized as “granted,”
with no separate distinction for applications where the scope of the request was
revised during the course of processing the application.

However, we found in our review of confidential treatment requests situations
where the scope of the confidential treatment request was significantly altered
during the comment and review period. In fact, we identified instances where
numerous comments were provided to applicants to make substantial changes to
their confidential treatment requests.

As indicated above, we learned that most confidential treatment requests were
submitted in connection with portions of material contracts and agreements filed
as exhibits to various filings (e.g., 8-K, 10-LK, 10-Q, and S-1.) Within our
sample, we found instances when companies did not provide all the required
information for the exhibits. In those instances, CF staff requested that the
applicants submit amended filings that included the additional required
information (e.g., schedules and addendums to contracts.)

In another example, a company included a large number of items in its initial
confidential treatment request related to its 10-Q quarterly filing; however, upon
the final granting of the confidential treatment request, only one redacted item
remained from the company’s initial request. CF staff provided numerous
comments on the various items for which the company initially requested
confidential treatment. In most instances when CF asked the company to
provide better justifications of why those items merited confidential treatment, the
company simply withdrew these requests. However, upon review of the
confidential treatment request database, one would assume that the initial
request had been granted without modification.

In a number of instances when confidential treatment requests were modified
during the course of a review during which comments were issued to the
applicant, the time period between the initial submission of the confidential
treatment request and the granting of the modified request was, on average,
considerably longer than the normal processing time for confidential treatment
requests. As such, having the ability to track modified confidential treatment
requests could permit CF to better allocate staff and perform a larger number of
full reviews by focusing its staff’s efforts on applicants that have historically
provided CF with initial confidential treatment requests that did not require
significant modifications prior to granting the request.



Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                26
        Recommendation 7:
        The Division of Corporation Finance should implement controls in the
        confidential treatment request database to perform validity checks for
        fields and to ensure that all information for each record has been
        completely populated.

        Management Comments. CF has concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that CF has concurred with this
        recommendation.

        Recommendation 8:

        The Division of Corporation Finance should add functionality to the
        confidential treatment request tracking database to identify confidential
        treatment requests that were modified from their initial state.

        Management Comments. CF has concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that CF has concurred with this
        recommendation.




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                27
                                                                         Appendix I


                                       Acronyms

AD                               Assistant Director
AIG                              American International Group
CF                               Division of Corporation Finance
FOIA                             Freedom of Information Act
FRBNY                            Federal Reserve Bank of New York
ML 3                             Maiden Lane III
ODS                              Office of Disclosure Support
OIG                              Office of Inspector General
SAB                              Staff Accounting Bulletin
SEC or Commission                U.S. Securities and Exchange Commission
SLB                              Staff Legal Bulletin
SROs                             Self Regulatory Organizations




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                28
                                                                        Appendix II


                          Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We determined that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We obtained CF’s policies and procedures for processing confidential
treatment requests submitted under Rules 406 and 24b-2, as of December 2008.
We conducted our fieldwork from April 2010 to August 2010. We reviewed
documentation pertaining to the CF confidential treatment request program
covering the calendar years 2008 and 2009 and January through March 2010.
The OIG reviewed the confidential treatment request rules and authoritative
guidance and assessed CF’s internal policies and procedures to determine if
internal policies ensure that applicants met all confidential treatment request rule
requirements. Additionally, our audit tested whether applicant’s confidential
treatment requests were submitted in accordance with the confidential treatment
request rules and if CF followed its internal policies and procedures in processing
confidential treatment requests.

Methodology. In order to accomplish our objectives to assess the adequacy of
CF’s internal policies that govern the intake, processing, and decision-making
associated with confidential treatment requests, we reviewed CF’s policies and
procedures for the intake, processing, screening, and examination of confidential
treatment requests. The OIG also reviewed the confidential treatment request
rules and authoritative guidance and assessed the adequacy of CF’s policies and
procedures to determine if they ensured applicants met all confidential treatment
request rule requirements. We conducted inquiries of CF management charged
with overseeing the confidential treatment request program to understand CF’s
policies and procedures and to obtain interpretation of the confidential treatment
request rules. The OIG also physically observed the intake, screening,
processing and examination of a confidential treatment request in a walkthrough
with staff members from CF. Further, the OIG performed testing of a sample of
confidential treatment requests for the period within our audit scope by examining
the confidential treatment application, the screening and examination reports
completed by CF, and other supporting documentation in confidential treatment
request files. We conducted inquiries of members of CF AD groups to
understand some of the key judgments involved with certain confidential
treatment requests in our sample selection.

Judgmental Sampling. Our population of confidential treatment requests
consisted of those received by CF for the period from January 2008 through

Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                                29
                                                                                      Appendix II

March 2010 under Rules 406 and 24b-2 of the Securities Act and Exchange Act,
respectively. The population consisted of confidential treatment requests from
companies in various industries, including financial services, healthcare,
insurance, telecommunications and travel, and requests that pertained different
types of filings, including 10-Qs, 10-Ks, 8-Ks and S-1s. Based on data received
from CF’s Disclosure Operations, the total number of confidential treatment
requests during the period from January 2008 through March 2010 was 3,381.
From the population universe, we judgmentally selected a sample of 30
confidential treatment requests covering our scope. In addition, our sample was
judgmentally selected to include companies that represented a span of industry
groups (e.g., banking, healthcare and manufacturing) from the various AD
offices. Our sample was also chosen to ensure coverage over the various forms
filed under the Securities Act and the and Exchange Act (e.g., 10-Ks, 10-Qs and
S-1s).

Internal or Management Controls. During our audit, the OIG reviewed internal
and management controls that related to our audit objectives. A walkthrough
was performed to verify management controls were in operation.

Use of Computer-Processed Data. We relied on data from the SEC’s EDGAR
system and from CF’s confidential treatment request tracking database. The
OIG performed testing of the accuracy of the CF database by comparing
information for a sample of confidential treatment requests from the database
against orders granting confidential treatment from the SEC’s EDGAR database.

Prior Audit Coverage. The OIG last conducted an audit of the CF confidential
treatment process in 1994. All of the prior report’s recommendations were
followed up on and implemented by management. More, recently, the OIG
conducted audits/reviews of the Office of the Secretary 81 and the SEC’s FOIA
Office 82 which included examining the activities performed in each office that
pertained to confidential treatment requests. However, our audit was focused on
confidential treatment requests submitted in connection with SEC regulatory
filings under the Securities Act of 1933 and Securities Exchange Act of 1934 and
did not extend to confidential treatment granted for information related to the
SEC comment letter process.




81
  OIG Audit Report No. 402, “Office of the Secretary,” September 20, 2005.
82
  OIG Audit Report No. 465, “Review of the SEC’s compliance with the Freedom of Information Act,”
September 25, 2009, and OIG Audit Report No. 422, “Backlog of FOIA Requests for Comment Letters,
March 30, 2007.
Assessment of CF’s Confidential Treatment Processes and Procedures                  September 28, 2010
Report No. 479
                                                 30
                                                                       Appendix III


                                          Criteria
Rule 406 under the Securities Act of 1933 (17 C.F.R. § 230.406). Governs the
submission of confidential treatment requests for filings submitted under the
Securities Act of 1933.

Rule 24b-2 under the Securities Exchange Act of 1934 (17 C.F.R. § 240.24b-
2). Governs the submission of confidential treatment requests for filings
submitted under the Exchange Act of 1934.

Division of Corporation Finance Staff Legal Bulletin No. 1 (with Addendum),
“Confidential Treatment Requests”, February 28, 1997 (Addendum included
July 11, 2001). This staff legal bulletin sets forth the Division of Corporation
Finance’s requirements that a registrant must satisfy when requesting
confidential treatment of information that otherwise is required to be disclosed in
registration statements, periodic reports and other documents filed with the
Commission.

Division of Corporation Finance Operating Procedures Manual –
Confidential Treatment Requests policies and procedures (December
2008). CF’s formal policies and procedures for processing confidential treatment
requests submitted under Rules 406 and 24b-2.

Regulation S-K, Item 601 “Exhibits, 17 C.F.R. § 229.601” Authoritative
guidance for disclosures associated with exhibits to forms filed with the SEC.
Item 601(b)(10) contains the provision that requires material contracts to be filed
with the SEC. The majority of confidential treatment requests submitted under
Rules 406 and 24b-2 are related to filing of exhibits (such as material contracts).

SEC Staff Accounting Bulletin No. 99 – Materiality, August 12, 1999. This
staff accounting bulletin expresses the views of the staff that exclusive reliance
on certain quantitative benchmarks to assess materiality in preparing financial
statements and performing audits of those financial statements is not
appropriate.




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                            Page 31
                                                                       Appendix IV


                        List of Recommendations

Recommendation 1:

The Division of Corporation Finance should recommend to the Commission that
the substantive requirements for confidential treatment requests that are
currently described in Staff Legal Bulletin No. 1, as well as any additional
substantive requirements deemed appropriate, be codified as formal guidance for
confidential treatment request applicants.

Recommendation 2:

The Division of Corporation Finance should revise its internal procedures for
processing confidential treatment requests to require additional documentation of
the substantive review of the materiality and competitive harm application-
specific requirements. Such additional documentation should detail the specific
qualitative and/or quantitative factors considered in assessing the materiality and
competitive harm pertinent to the subject matter of the confidential treatment
request.

Recommendation 3:

The Division of Corporation Finance should revise its internal procedures
to require additional documentation of the Assistant Director Office’s
review of the Office of Disclosure Support’s recommendations of “No
Review” to document factors considered in making the determination that
no review is required.

Recommendation 4:

The Division of Corporation Finance (CF) should perform periodic internal audits
of the confidential treatment process to provide for continuous monitoring of the
confidential treatment program. As part of these periodic internal audits, the CF
should verify on a periodic basis that the information for which confidential
treatment was granted has not been publicly disclosed. If CF determines that
information previously granted confidential treatment has been publicly disclosed,
it should take steps, as appropriate, to revoke the confidential treatment grant.




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                            Page 32
                                                                       Appendix IV

Recommendation 5:

The Division of Corporation Finance should revise its internal procedures for
handling the initial screening of confidential treatment requests to ensure that the
materiality and competitive harm criteria are not met by simply making
conclusory statements or including boilerplate language in the applications by
requiring additional documentation of how the screening and review process
identified specific and concrete representations to support each criteria.

Recommendation 6:

The Assistant Director offices with the highest percentage of confidential
treatment requests (i.e., Assistant Director office No. 1 and Assistant Director
office No. 10) should provide training to staff in the other Assistant Director
offices in order to share knowledge about specific industry matters with those
who will be performing reviews of confidential treatment requests for companies
in industries outside of their assigned industry group.

Recommendation 7:

The Division of Corporation Finance should implement controls into the
confidential treatment request database to perform validity checks for fields and
to ensure that all information for each record has been completely populated.

Recommendation 8:

The Division of Corporation Finance should add functionality to the confidential
treatment request tracking database to identify confidential treatment requests
that were modified from their initial state.




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                            Page 33
                                                                                               Appendix V


                            Management Comments

                                            MEMORANDUM
                                                                  September 24, 2010

      To:            H. David Kotz. Inspector General
                     Office of Inspector General                      ~

      From:          Meredith B. Cross, Director   ~
                     Division of Corporation Finance

      Re:            Division's Response to the Office ofInspector General's Report, Assessment
                     ojCorporation Finance's Confidential Treatment Processes and Procedures.
                     Report Nu. 479


             Thank you for the opportunity to review and respond to the Office of Inspector
    . General's Draft Report No. 479 entitled Assessment ojCorporation Finance's Confidential
      Treatment Processes and Procedures. The review your office conducted is helpful to us in
      improving the Division of Corporation Finance'sprogram to better fulfill the Commission's
      investor protection mission. In addition, I want to thank you for the courtesy your staff
      extended to us during the course ofyour audit and for the opportunity you have given us to
      present the Division's views on your findings. As described below, the Division will
      implement procedural·changes in response to your recommendations.

      General Observations

             While we respond to your individual recommendations on how we can improve our
      processes and procedures below, we would first like to provide some general observations
      about your assessment of our confidential treatment program, which I believe are important
      to place your report and our response in context.

                The report suggests that the Division's processes and procedures under which only a
      portion of confidt,mtial treatment requests receive some substantive staff review increases the
      risk that a company requesting confidential treatment will not disclose material information
      to investors. However, we note that, without regard to whether we review a confidential
      treatment request, a company is subject to. the provisions in the federal securities laws and
      well-established case law precedent that specify what information a company must disclose
      in its filings. I disagree with the Assessment's conclusion that we must, in determining
      whether to grant confidential treatment for a material contract, judge whether the terms of
                                     an
      that contract are immaterial to investor. Rather, the Division must evaluate whether it can
      object to the company's assertion that the infonnation is not necessary for the protection of
      investors in the context of the company's overall disclosures, including whether that
      information is necessary to make the information the company has already disclosed, in light
      of the circumstances under which it was disclosed, not misleading. Thus, for example, while
      the detaile(1, commercially-sensitive terms of an agreement may appear important in




Assessment of CF’s Confidential Treatment Processes and Procedures                         September 28, 2010
Report No. 479
                                                  Page 34
                                                                                       Appendix V



  isolation, disclosure may not be necessary in light of the infonnation a company otherwise
  provides.

           Given our resources and our program responsibilities, we are not able to undertake a
  d~tailed  review of every confidential treatment request. Therefore, I believe a process
  through which we evaluate whether a request, on its face, conflicts with Commission rules
  and warrants further review is consistent with the full disclosure mandate. While the
  Assessment describes, in great detail, the role of the Research Specialists in the Division's
  Office of Disclosure SuPPOrt. it does not equally describe the role oCthe Division's legal staff
  in this evaluati,ve process. I believe this is because, in this process, we currently place greater
  documentation requirements on our Research Specialists than we do on our legal staff. I
  want to make clear that the review recommendations of the Office of Disclosure Support are
  only one element our legal staff considers in making review detenninations and processing
  confidential treatment requests. You recommend that we improve the documentation
  associated with this legal review role in the screening process evaluation of materiality and
  competitive hann, and, as noted below, we concur with your recommendations and will do
  so.

          In stating that you found only one instance where we denied a confidential treatment
  request, I believe that the Assessment provides an erroneous impression that we granted all
  other requests as submitted. While it is true that we rarely deny a confidential treatment
  request, it is important to understand that we conduct a robust evaluation and comment
  process on 8 substantial number of requests. and that this review frequently results in a
  narrowing ofthe infonnation subject to the request or, in some cases, in the withdrawal of the
  request. Absent the oppo~unity to engage in this evaluation and comment process, we would
  certainly expect to deny more requests. We note that you recommend in Recommendation 8
  that we improve our tracking of this "narrowing" activity, and, as noted below, we concur
  with this recommendation and will do so.

          Finally, I am concerned about the conclusion a reader of your report might reach
  regarding our processing of a confidential treatment request relating to an exhibit filed by
  American International Group, Inc. with a Fonn 8-K in December 2008. In your most recent
  draft of the report. you state that you elected to commence your audit of the Division's
  confidential treabnent processes and procedures "[c]onsidering the Congressional efforts to
  provide the public with greater transparency surrounding the Federal assistance to AIG along
  with statements rendered by the FRBNY pertaining to the SEC's confidential treatment
  process," As you note in your report, you did not provide any conclusions regarding our
  processing of the AIG confidential treatment request. While I appreciate your explanation
  that you did not reach any conclusion with regard to the' AIG request, I remain concerned that
  a reader of your report might conclude that the concerns you express about our confidential
  treatment program in general were present in our review of the AIG request. Therefore, I
  want to emphasize my understanding that your report does not reflect any concern ahout our
  review and processing of this particular confidential treatment request.

                                                   2




Assessment of CF’s Confidential Treatment Processes and Procedures                 September 28, 2010
Report No. 479
                                             Page 35
                                                                                       Appendix V


  Division Responses to your Recommendations

  Recommendation 1:

  The Division of Corporation Finance should recommend to the Commission that the
  substantive requirements for confidential treatment requests that are currently described in
  StaffLegal Bulletin No. I as well as any additional substantive requirements deemed
  appropriate, be codified as formal guidance for confidential treatment request applicants.

  Division Response to Recommendation 1:

  The Division does not concur with your recommendation that we should recommend to the
  Commission that it should codify the substantive requirements for confidential treatment
  requests described in Staff Legal Bulletin No. I. We note that Staff Legal Bulletin No.1
  does not represent the substantive requirements that a company must meet in order to request
  confidential treatment under Rules 406 and 24b-2. Instead, the Staff Legal Bulletin is a
  method by which the staff can provide public guidance (contrary to the report, it is not an
  "internal" document) to assist the public in understanding how the staff interprets the
  Freedom of Information Act and Commission rules that apply to a request for confidential
  treatment. We believe that providing this type of guidance through Staff Legal Bulletins
  posted on the Commission's website is helpful to the public and promotes better compliance
  with the federal securities laws, without burdening the Commission with additional
  rulemaking initiatives.

  Recommendation 2:

  The Division of Corporation Finance should revise its internal procedures for processing
  confidential treatment requests to require additional documentation of the substantive review
  ofthe materiality and competitive harm application-specific requirements. Such additional
  documentation should dewl the specific qualitative and/or quantitative factors considered in
  assessing the materiality and competitive harm of the confidential treatment subject matter.

  Division Response to Recommendation 2:

  As We noted above, we evaluate whether a request, on its face, conflicts with Commission
  rules and warrants further review and we agree that we can enhance our documentation of
  that consideration. We therefore concur with your recommendation that we revise our
  internal procedures to require additional documentation of the review our legal staff
  undertakes of the materiality and competitive harm application-specific requirements in the
  screening process.

  We do not concur with your recommendation that this documentation should detail the
  specific qualitative and/or quantitative factors considered in assessing the materiality and

                                                 3




Assessment of CF’s Confidential Treatment Processes and Procedures                 September 28, 2010
Report No. 479
                                             Page 36
                                                                                      Appendix V

   competitive harm of the confidential treatment subject matter. We believe that to do so
   would require a full evaluation of materiality and competitive hann as it relates to each
   company's specific facts and circwnstances which would, in tum, require a full evaluation of
   that infonnation in the context of the company's overall disclosure. Given limited staff
   resources and our program responsibilities, we are not able to undertake this level of review
   on each confidential treatment request. We believe that our revised screening process
   documentation, as we describe in our response to Recommendation 3, should identify those
   requests that warrant a more robust review and appropriately balance our resources and
   responsibilities.

   Recommendation 3:

   The Division ofCorporation Finance should revise its internal procedures to require
   additional documentation of the Assistant Director Office's review of the Office of
   Disclosure Support's recommendations of"No Review" to document factors considered in
   making the detennination that no review is required.

   Division Response to Recommendation 3:

   We concur and plan to implement this recommendation by revising our screening process
   documentation to make clear that all review decisions are made by the Assistant Director
   Office, to document whether the company materiality and competitive hann discussions
   appear to warrant further evaluation by lbe Assistant Director Office legal staff, and to
   require an affmnation of the Office of Disclosure Support's review recommendation by the
   Assistant Director Office.

   Recommendation 4:

   The Division of Corporation Finance should perfoon periodic intemal audits of the
   confidential treatment process for continuous monitoring. As part of these periodic internal
   audits, the Division ofCorporation Finance should verify on a periodic basis that the
   infonnation lbat has been granted confidential treannent has not been publicly disclosed. If
   the Division ofCorporation Finance determines that information previously granted
   confidential treannent bas beeo publicly disclosed, it should take steps, as appropriate, to
   revoke lbe confidential treatment grant.

   DtviJion Response to Recommendation 4:

   With regard to the recommendation that we periodically audit the confidential treatment
   process, we concur and will develop a procedure through"which the Division will
   periodically audit the confidential treatment process to conf1C11l that we are following our
   documented procedures.


                                                  4



Assessment of CF’s Confidential Treatment Processes and Procedures                September 28, 2010
Report No. 479
                                             Page 37
                                                                                    Appendix V


   With regard to the recommendation that the Division should implement a program to
   periodically evaluate whether information subject to a grant ofconfidential treatment has
   remained confidential, we do not concur. The Division believes that such a program
   represents a significant commitment ofresources without a corresponding benefit to
   investors. The amount of work necessary to implement a meaningful program to monitor
   whether information has been publicly disclosed would be very significant. Presumably, this
   would entail comprehensive searches of publicly available infonnation (not limited to the
   EDGAR database) to attempt to locate specific information relevant to a specific grant of
   confidential treatment (e.g., the pricing terms in a purchase agreement). For such a program
   to be meaningful, presumably some significant number of these searches would need to be
   undertaken each year. In light of the large number ofdocuments subject to confidential
   treatment orders at any given time, this would be extremely time intensive, and we do not
   believe it would be a cost-effective use of staff resources. As noted in the "General
   Observations" section above, receiving a grant ofconfidential treatment does not excuse a
   company from complying with its disclosure obligations under the federal securities laws.
   Thus, on balance, we do not believe that the incremental benefit that might arise from such
   an undertaking supports the use of staff resources for that effort.

   Recommendation 5:

   The Division of Corporation Finance should revise its internal procedures for handling the
   initial screening of confidential treatment requests to ensure that the materiality and
   competitive harm criteria are not met by simply making conclusory statements or including
   boilerplate language in the requests by requiring additional documentation of how the
   screening and review process identified specific and concrete representations to support each
   criteria.

   Division Response to Recommendation 5:

   We concur with your recommendation in that where a confidential treatment request presents
   conciusory or boilerplate materiality and competitive harm statements, the request warrants
   consideration for further review. Therefore, we will revise our processes and procedures to
   identify these requests for further consideration by the Assistant Director Office.

   We do not concur with your recommendation that we should further document how our
   processes and procedures identified specific and concrete representations to support each
   criterion and do not require further evaluation in the review and comment process. To do so
   would require a full evaluation of the materiality and competitive harm as it relates to each
   company's specific facts and circumstances. Given limited staff resources and our program
   responsibilities, we are not able to undertake this level of review on each confidential
   treatment request. We believe that the revisions we will make to our screening process in
   response to Recommendation 3 should be helpful in addressing your concerns.


                                                  5



Assessment of CF’s Confidential Treatment Processes and Procedures              September 28, 2010
Report No. 479
                                            Page 38
                                                                                         Appendix V


    Recommendation 6:

    The Assistant Director offices with the highest percentage of confidential treatment requests
    (Le., Assistant Director office No. 1 and Assistant Director office No. 10) should provide
    training to the other Assistant Directors' offices' staff in order to share knowledge about
    specific industry matters with those that will be performing reviews ofconfidential treatment
    requests for companies in industries outside of their assigned industry.

    Division Response to Recommendation 6:

    We concur and will implement this recommendation.

    Recommendation 7:

    The Division of Corporation Finance should implement controls into the confidential
    treatment request database to perform validity checks for fields and to ensure that all
    information for each record has been completely populated.

    Division Response to Recommendation 7:

    We concur and will implement this recommendation.

    Recommendation 8:

    The Division of Corporation Finance should add functionality to the confidential treatment
    request tracking database to be able to identify confidential treatment requests that were
    modified from their initial state.

    Division Response to Recommendation 8:

    We concur and will implement this recommendation.




                                                   6




Assessment of CF’s Confidential Treatment Processes and Procedures                   September 28, 2010
Report No. 479
                                              Page 39
                                                                       Appendix VI


      OIG Response to Management’s Comments

CF concurred with four of our eight recommendations, partially concurred with
three recommendations, and did not concur with one recommendation. We feel
these recommendations if fully implemented will strengthen CF’s ability to
improve its internal policies and procedures for the confidential treatment request
program and further improve CF’s review of companies’ confidential treatment
requests. Therefore, we implore CF to reconsider fully implementing
Recommendation Nos. 2, 4, and 5 because doing so will enhance the
transparency around the decision making to grant confidential treatment
requests. Further, the OIG believes CF should reconsider fully implementing
Recommendation No. 1 due to the fact that Staff Legal Bulletin No.1 expresses
the requirements that CF expects companies to adhere to when submitting
confidential treatment request and is intricately woven into its internal policies
and procedures. Codification of these requirements would benefit companies as
well as CF.

Once all of the recommendations are fully implemented, we believe that the
improvements will greatly assist CF to better monitor its performance of the
confidential treatment program.




Assessment of CF’s Confidential Treatment Processes and Procedures   September 28, 2010
Report No. 479
                                            Page 40
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
